CERTIFICATE OF SERVICE
NO. TBD
In Re JH by and through Conservator Betty Harris,
Petitioner,
v.
Williamson County et al.,
Respondents.
__________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the IN RE
JH BY AND THROUGH CONSERVATOR BETTY HARRIS PETITION FOR WRIT OF CERTIORARI, by mailing
three (3) true and correct copies of the same by USPS Priority mail, postage prepaid for delivery to
the following addresses:
Lisa M. Carson
Buerger, Moseley & Carson, PLC
306 Public Square
Franklin, TN 37064
(615) 794-8850
lcarson@buergerlaw.com
Counsel for Williamson County et al.

Lucas DeDeus

September 11, 2020
SCP Tracking: Crain-5214 Maryland Way, Ste 402-Cover White

